***THIS IS A CAPITAL CASE***
No.

 

 

 

 

Jn the Supreme Court of the United States

 

MICKEY THOMAS,
Petitioner
Vv.

DEXTER PAYNE, Director,
Arkansas Division of Correction,

Respondent

 

CERTIFICATE OF SERVICE

I hereby certify that I have served all parties required to be served with the
Motion to Proceed In Forma Pauperis and the Petition for a Writ of Certiorari.
Specifically, in compliance with S. Ct. R. 29.3, on March 12, 2021, I emailed these
documents and sent a copy via United States Postal Service, first-class postage
prepaid, to below-listed counsel:

Christian Harris, Assistant Attorney General
Office of the Attorney General

323 Center Street, Suite 200

Little Rock, AR 72201

Counsel for Respondent

 

J@fin C. WILLIAMS
